              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections




Inspection Report
 Allegations Concerning the Reporting of a
 Radiological Incident at the Los Alamos
 National Laboratory




DOE/IG–0591                                 March 2003
                                       Department of Energy
                                            Washington,   OC 20585

                                             March 20, 2003


    MEMORANDUM FOR

    FROM:
                             Inspector General

    SUBJECT:                 DJFORMATION: Report on Tnspection of "Allegations Concerning
                             the Reporting of a Radiological Incident at the Los Alamos National
                             Laboratory"

    BACKGROUND

    On February 15, 2001, an unanticipated airborne release of Plutonium-238 (Pu-238) occurred
    from a glovebox at the Los Alamos National Laboratory (Los Alamos) Technical Area 55
    (TA-55) Site. The incident resulted in the contamination of workers. As required, Los Alamos
    officials prepared an Occurrence Report outlining the circumstances of the incident. The
    National Nuclear Security Administration (NNSA) referred to the Ofice of Inspector General a
    complaint that questioned the thoroughness and competence of the evaluation of the incident by
    Los Alamos and the failure to consider the procedural violations that caused the incident.
    Consequently, the purpose of our inspection was to evaluate the facts and circumstances
    surrounding the reporting of the incident.

    RESULTS OF INSPECTION

    We concluded that Los Alamos glovebox safety operations and procedures at the time of the
    release were not performed in accordance with NNSA-approved policies for the handling of
    Pu-238. Specifically, Los Alamos personnel did not use special tools and/or insulated gloves as
    required by handling procedures. Additionally, we found that the Occurrence Report for the
    incident was incomplete and did not accurately describe the root cause of the airborne release.
    For example, it mentioned that there was a tear in the protective glove, but did not discuss the
    cause of the glove failure; it contained the statement that no procedural violations had been
    found, even though handling procedures in effect at the time had not been followed; and, it did
    not mention the contamination of workers that occurred as a result of the release.

    The information developed during our review, including the confirmation that Laboratory
    personnel were contaminated due to exposure to Pu-238, suggests significant safety
    shortcomings at the time at Los Alamos. We are concerned, as well, by the fact that the
    Occurrence Report did not identify the root cause of the release and the contamination of the
    workers, The Occurrence Report is the primary vehicle used by the Department to ensure
    appropriate and timely notification, investigation, and reporting of events that could adversely
~

    affect the health and safety of the public or the workers.
I
We recommended that responsible NNSA officials ensure that the totality of the available
information surrounding the glovebox contamination incident is thoroughly reviewed by
contractor and Federal officials. We also recommended that the Laboratory be directed to
strengthen its internal controls to reduce and/or eliminate the possibilities of inadvertent
contamination and place greater emphasis on occurrence reporting to ensure adherence to
reporting requirements.

We had two observations unrelated to our specific inspection objectives, but which are highly
relevant to the matter at hand. We observed that the quality of the glovebox gloves has been a
continuing problem at Los Alamos. We also observed that there was disagreement and
confusion among TA-55 employees on how and when to apply the requirements at the TA-55
Site for two trained and authorized persons to be in constant eyesight of each other and the
nuclear material with which they are entrusted. In our view, these issues have serious
implications for worker safety at Los Alamos and, specifically, safety operations at TA-55.

MANAGEMENT REACTION

Management concurred with our findings and recommendations. Management advised that Los
Alamos officials had initiated a formal investigation of the incident that identified 119 corrective
actions that needed to occur. Management reported that 108 of the corrective actions have been
completed and the remaining actions would be completed by December 30,2003.

Attachment

cc:   Deputy Secretary
      Acting Administrator, National Nuclear Security Administration
      Under Secretary for Energy, Science, and Environment
      Director, Policy and Internal Controls Management
INSPECTION OF ALLEGATIONS CONCERNING THE
REPORTING OF A RADIOLOGICAL INCIDENT AT THE
LOS ALAMOS NATIONAL LABORATORY



TABLE OF
CONTENTS




           OVERVIEW

           Introduction and Objectives ............................................       1

           Conclusions and Observations ......................................            1


           DETAILS OF FINDINGS

           Handling Procedures ..............................................             3

           Occurrence Report .................................................            3

           Spread of Contamination             ........................................   4


           RECOMMENDATIONS .....................................................          5


           MANAGEMENT REACTION ..........................................                 6


           INSPECTOR COMMENTS .....................................................       6


           APPENDICES

           A. Other Matters ...................................................           7

           B. Scope and Methodology .....................................                 9
Overview

INTRODUCTION                       On May 3 1,2001, the Office of Inspector General (OIG),
AND OBJECTIVES                     Department of Energy (DOE), initiated an inspection to determine
                                   the facts and circumstances surrounding the reporting of a
                                   radiological incident at the Technical Area 55 (TA-55) Site of the
                                   Los Alamos National Laboratory (Los Alamos). On February 15,
                                   2001, an unanticipated airborne release of Plutonium-238 (Pu-238)
                                   occurred from a glovebox’ in Room 207 of Building 4 at the
                                   TA-55 Site during the handling of scrap Pu-238 fuel. The incident
                                   resulted in the contamination of workers and preparation of an
                                   Occurrence Report.*

                                   On March 20,2001, the Executive Staff Director of the National
                                   Nuclear Security Administration forwarded an anonymous
                                   complaint to the OIG. The complainant alleged that the Los
                                   Alamos Nuclear Materials Technology (NMT) Division, which
                                   was responsible for supporting weapons programmatic activities at
                                   Los Alamos, was engaged in “factual distortion, spin doctoring and
                                   deliberate concealment of FUR [Radiological Incident Report]
                                   events within the TA-55 facility.” The complainant also alleged
                                   that “Unequal standards are being selectively applied to RIR
                                   investigations by Nh4T Division management [and] the RIR
                                   critique and reviews can be perverted for political use.” The
                                   complainant discussed the specific incident in Room 207 and
                                   questioned the critique of the incident and its failure to consider the
                                   procedural violations that caused the incident.

                                   The objectives of this inspection were to determine: (1) if the
                                   glovebox operation at the time of the unanticipated airborne release
                                   in Room 207 was performed in accordance with approved policies
                                   and procedures for the handling of Pu-238 fuel; and, (2) if the
                                   Occurrence Report accurately described the cause of the release.

CONCLUSIONS AND                    We concluded that glovebox operations at the time of the release
OBSERVATIONS                       were not performed in accordance with approved policies and
                                   procedures for the handling of Pu-238 fuel. Handling procedures
                                   require the use of special tools and/or insulated gloves so that

’ A glovebox is a sealed system under negative pressure, which allows manipulation of objects inside the box via
 gloves integrated into the sides of the box.
 An Occurrence Report is used to report abnormal conditions and events concerning DOE operations. The final
 Occurrence Report is submitted when the root cause of the occurrence has been analyzed, corrective actions
 determined with completion dates, and lessons learned identified.




Page 1                                               Inspection of Allegations Concerning the
                                                     Reporting of a Radiological Incident at the
                                                     Los Alamos National Laboratory
                                  glovebox gloves do not come in contact with the Pu-238. We
                                  found that the team performing the glovebox operation at the time
                                  of the release did not use special tools andor insulated gloves.

                                  Additionally, we concluded that the Occurrence Report did not
                                  accurately describe the cause of the airborne release. According to
                                  the Occurrence Report, both the direct and root cause of the
                                  occurrence were described as an “Equipment/Matenal Problem,
                                  Defective or Failed Part.” Also, the “Description of Cause” section
                                  contained the statement that “. . . No procedural violations were
                                  found.” In contrast, as previously mentioned, handling procedures
                                  had not been followed.

                                  In addition, we found that the Occurrence Report was incomplete.
                                  It mentioned that there was a tear in the glovebox glove, but did
                                  not discuss the cause of the glove failure. Occurrence Report
                                  guidelines require that the cause of the occurrence be addressed.
                                  The Occurrence Report also did not mention the contamination that
                                  occurred as a result of the release. We learned through interviews
                                  with team members that radioactivity was spread by the Lead
                                  Technician after he removed his hands from the glovebox.

                                 We have two Observations unrelated to OUT specific inspection
                                 objectives. We observed that the quality of the glovebox gloves
                                 has been a continuing problem at Los Alamos. We also observed
                                 that there was disagreement and confusion among TA-55
                                 employees on how and when to apply the requirements for the two-
                                 person rule3 at the TA-55 Facility. This requirement is an
                                 important aspect of safety operations at TA-55. These
                                 observations are briefly discussed in Appendix A.




The requirement is satisfied when two trained and authorized persons are within constant eyesight of each other,
and the nuclear material with which they are entrusted.



Page 2                                                                                                Overview
DetaiIs of Findings

                  The incident involving the airborne release was initially
                  documented in a IUR, which stated that Continuous Air Monitor
                  Alarms had sounded in Room 207 due to a bum or tear on the right
                  hand of a glovebox glove. The incident resulted in radioactive
                  contamination of two Los Alamos employees.

HANDLING          We determined that required handling procedures for Pu-238
PROCEDURES        were not followed. Specifidally, the glovebox operation at the
                  time of the unanticipated airborne release was not performed in
                  accordance with approved policies and procedures for handling
                  Pu-238 fuel. The Los Alamos Hazard Control Plan for “Pu-238
                  Fuel Processing,” dated September 13,2000, which governs
                  Pu-238 fuel processing activities, states that:

                          ‘a3sPu02fuel is thermally hot. Avoid bringing
                          glovebox gloves into contact with the fuel. Handle
                          with suecial tools and/or insulated aloves.”
                          [Emphasis added.]

                  It also states that:

                          “Potential exists for thermal damage to the
                          glovebox and glovebox gloves that could, in turn,
                          result in loss of glovebox containment of
                          radioactive material.”

                  Through discussions with the team members, Inspectors learned
                  that team members did not use any special tools or insulated gloves
                  during the process of loading the scrap Pu-238 fuel into a
                  container. The Group Leader said that the team handling the scrap
                  Pu-238 should have used tools or instruments to handle the
                  containers, since the Pu-238 is thermally hot. The Group Leader
                  also said that the operation probably should have been performed
                  in Room 206 instead of Room 207. She said that Room 206
                  contains all of the tools and instruments needed for the handling of
                  the thermally hot Pu-238. She said that Room 207 did not contain
                  these tools.

OCCURRENCE        The Occurrence Report did not accurately or completely describe
REPORT            the cause of the airborne release. It did not mention the deviations
                  from the Pu-238 handling procedures, the cause of the glove
                  failure, or the subsequent spread of radioactive contamination by
                  the Lead Technician.




Page 3                                                           Details of Findings
                Consistent with the provisions of DOE Order 232.1A,
                “OCCURRENCE REPORTING AND PROCESSING OF
                OPERATIONS INFORMATION,” an Occurrence Report was
                prepared on the February 15,2001, release. The Final Occurrence
                Report, titled “Unanticipated Airborne Release of Plutonium-238
                in TA-55, Building 4, Room 207,” dated May 3 1,2001, identified
                the direct and root cause of the incident as an “Equipment/
                Material Problem, Defective or Failed Part.” In addition, the
                Occurrence Report stated that:

                       “The procedure was reviewed and the glove box
                       was inspected for a source which could have caused
                       a tear in the glove box glove. No mocedural
                       violations were found. [Emphasis added.] No
                       source for the tear was found.”

                We found this statement is inconsistent with information provided
                by team members, namely that they did not use special tools or
                insulated gloves when handling the Pu-238. The failure to use
                special tools or insulated gloves violated established procedures for
                handling Pu-238 fuel.

                The Occurrence Report described the glove failure as a tear,
                with no source of the tear found. However, information we
                obtained from two members of the Los Alamos Improving
                Glovebox Glove Project suggests that temperature and radiation
                caused a crack in the glove. This was not mentioned in the
                Occurrence Report and probably not known by the preparers of the
                Occurrence Report.

                According to these two members, on February 27,2001, they
                started an analysis associated with the glovebox glove failure.
                Their report identified variables that affected the service life of a
                glovebox glove. The two highest weighted variables were
                temperature and radiation. Both members agreed that the glove
                used during the Pu-238 operation had cracks. They both believed
                that the cracks were primarily caused by temperature, because Pu-
                238 is thermally hot. They also said that thermal gloves or special
                tools should have been used during the operation.

SPREAD OF       Although it is established that radioactive contamination (Pu-238)
CONTAMINATION   was spread by team members after the glovebox was breached, this
                fact was not mentioned in the Occurrence Report. We were told by
                team members that a monitoring device first identified the


Page 4                                                          Details of Findings
                  radioactive contamination. The Lead Technician attempted to reset
                  the monitoring device, but could not reach the reset button. The
                  Lead Technician took a notebook with his contaminated hand,
                  thereby spreading the contamination onto the notebook, and hit the
                  reset switch. He handed the notebook back to another team
                  member, whose hand then also became contaminated.

                  The Occurrence Report was incomplete and conveyed certain
                  inaccuracies. For example, the section on “Lessons Learned”
                  stressed the need for continual emphasis on the routine response to
                  abnormal events, and stated that “. . . the operator’s correct
                  behavior to an abnormal glovebox condition . . . mitigated the
                  potential consequences of the glove failure.” However, the
                  Occurrence Report did not mention the deviations from the Pu-238
                  handling procedures, the lack of a consistent and thorough
                  understanding of the Pu-23 8 handling procedures by glovebox
                  operators, and the actions that led to the spread of contamination.
                  We believe that Los Alamos missed an opportunity to identify
                  meaningful “Lessons Learned” because the Occurrence Report did
                  not contain this information.

RECOMMENDATIONS   We recommend that the Manager, Los Alamos Site Office, direct
                  the Los Alamos National Laboratory Director to:

                  1. Review the facts and circumstances surrounding the glovebox
                     contamination incident and strengthen internal controls to
                     reduce andor eliminate the possibilities of inadvertent
                     contamination.

                  2. Review occurrence reporting to ensure consistency and
                     adherence to reporting requirements.

                  3. Identify and disseminate meaningful “Lessons Learned” based
                     upon all available information.




Page 5                                                         Recommendations
MANAGEMENT   In correspondence dated February 6,2003, the NNSA Associate
REACTION     Administrator for Management and Administration generally
             agreed with our findings and recommendations. He advised that
             LANL officials had initiated a formal investigation that generated
              119 corrective actions that needed to occur. He reported that 108
             of the corrective actions have been completed; five of the
             remaining eight actions will be completed by August 29,2003; and
             the remaining three actions will be completed by December 30,
             2003.

INSPECTOR    The Office of Inspector General believes management has taken
COMMENTS     positive steps to address the concerns raised in our report.




Page 6                                                Management Reaction
                                                       Inspector Comments
Appendix A - Other Matters

QUALITY OF        The quality of glovebox gloves has been a problem at the
GLOVEBOX GLOVES   Los Alamos National Laboratory (Los Alamos). Los Alamos
                  officials are concerned that there is currently only one supplier for
                  the gloves. Because Los Alamos is in the process of attempting to
                  correct these problems, we have not made formal
                  recommendations in this area.

                  The Los Alamos Improving Glovebox Glove Project identified
                  specific problems with glovebox gloves in a July 20,2001,
                  document titled “Immediate Action Recommendation.” According
                  to this document, “. . . Quality of glovebox gloves continues to be a
                  big problem. Three Non Conformance Reviews (NCRS) relating to
                  the quality of glovebox gloves since 1998 have been issued related
                  to North [Safety Products] glovebox gloves.”

                  The document contained charts that presented summary quality
                  assurance inspection information showing many rejections of
                  gloves occurring during 2001. For one type of hypalon glove, 18
                  gloves were inspected in June 2001 and 14 of the 18 gloves were
                  rejected. For a second type of hypalon glove, 136 gloves were
                  inspected in July 2001 and all 136 gloves were rejected. For lead
                  lined gloves, 108 gloves were inspected in May 2001 and four
                  gloves were rejected.

                  Additionally, the document states that:

                         “The Improving Glovebox Glove Project (IGGP)
                         members recommend immediate action for the
                         establishment of multiple manufacturers of glovebox
                         gloves. Glovebox gloves are a strategic consumable.
                         These gloves protect glovebox workers as a primary
                         barrier from radioactive exposure and contamination.
                         If the glovebox gloves supply is interrupted; the lack
                         of gloves could halt glovebox operations, greatly
                         hinder programmatic activities, and affect the safety
                         envelope.”




Page 7                                                                 Other Matters
TWO-PERSON RULE                 There was disagreement and conhsion among TA-55 employees
                                regarding how and when to apply the requirements for the two-
                                person rule at the TA-55 Facility. For example, at the beginning of
                                our inspection, we were told that there was no two-person rule at
                                TA-55. However, we were later informed that there was a two-
                                person rule, but that it only applied under certain circumstances or
                                in certain areas. We also learned that Los Alamos had been
                                granted a variance from performing strict visual surveillance/direct
                                observation (two-person rule) in glovebox lines in building PF-4 at
                                TA-55.

                                The variance, we were told, is still in effect. Because the
                                Department is in the process of reviewing procedures after the
                                terrorist attacks of September 11,2001, we have not made formal
                                recommendations in this area. However, steps should be taken to
                                ensure that TA-55 employees know when to apply the two-person
                                rule to their activities, and the conditions and circumstances that
                                existed at the time the variance was approved should be reviewed
                                for current appropriateness.




 By memorandum dated October 27, 1998, subject: “Revised Request for Deviation (Variance) on Surveillance
 Requirements for Specific Operations at TA-55 (OSS-LANL-98-009) (OSS-AL-98-17),” the Albuquerque
 Operations Office Safeguards and Security Division authorized a variance from performing strict visual
 surveillancddmct observation (two-person rule) in glovebox lines in building PF-4 at TA-55. By memorandum
 dated February 8 , 1999, subject: “MATERIAL SURVEILLANCEPROGRAM AT LOS ALAMOS NATIONAL
 LABORATORY,” the Headquarters Director, Office of Safeguards and Security, concurred with the variance.




Page 8                                                                                   Other Matters
Appendix B

SCOPE AND     We reviewed the allegations concerning Radiological
METHODOLOGY   Incident Report policies and procedures at the TA-55 Site. In
              reviewing these concerns, we evaluated:

                  The policies and procedures used at the TA-55 Site for
                  processing h - 2 3 8 fuel.

                  The applicable Los Alamos National Laboratory (Los Alamos)
                  and Department of Energy (DOE) requirements associated with
                  reporting radiological incidents and unusual occurrences.

                  The applicable Los Alamos and DOE requirements for the two-
                  person rule.

              +   Radiological Incident Reports for 1999,2000 and 2001.

              +   Occurrence Reports for 1999,2000, and 2001.

              As part of our review, we interviewed Los Alamos management
              officials at the TA-55 Site, employees involved in the processing
              of Pu-238 fuel, and other TA-55 Site personnel involved in
              operations at the facility. We also interviewed DOE officials at the
              TA-55 Site. In addition, we reviewed Los Alamos and DOE
              documentation relating to: 1) Radiological Incident Reporting;
              2) Occurrence Reporting; 3) dose assessment policies and
              procedures; and 4) requirements for the two-person rule.

              This inspection, which was conducted between May and December
              2001, was conducted in accordance with the “Quality Standards for
              Inspections” issued by the President’s Council on Integrity and
              Efficiency.




Page 9                                               Scope and Methodology
                                                                     IG Report No. DOEIIG-0591

                                  CUSTOMER RESPONSE FORM

The Ofice of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3 . What format, stylistic, or organizational changes might have made this report’s overall
    message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer ftiendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U S . Department of Energy Office of Inspector General Home Page
                                         httu://www.ig.doe. gov

      Your comments would be appreciated and can be provided on the Customer Response Form
                                     attached to the report.
